<html>
<title> - [H.A.S.C. No. 111-53]THE REPORT OF THE CONGRESSIONAL COMMISSION ON THE STRATEGIC POSTURE OF THE UNITED STATES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-53]

                      REPORT OF THE CONGRESSIONAL

                      COMMISSION ON THE STRATEGIC

                      POSTURE OF THE UNITED STATES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              MAY 6, 2009


                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE
53-569                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                 Rudy Barnes, Professional Staff Member
                Bob DeGrasse, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Zach Steacy, Staff Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, May 6, 2009, Report of The Congressional Commission on 
  the Strategic Posture of the United States.....................     1

Appendix:

Wednesday, May 6, 2009...........................................    31
                              ----------                              

                         WEDNESDAY, MAY 6, 2009
REPORT OF THE CONGRESSIONAL COMMISSION ON THE STRATEGIC POSTURE OF THE 
                             UNITED STATES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     3
Spratt, Hon. John, a Representative from South Carolina, 
  Committee on Armed Services....................................     1

                               WITNESSES

Perry, Dr. William J., Chairman, The Congressional Commission on 
  the Strategic Posture of the United States.....................     5
Schlesinger, Dr. James R., Vice Chairman, The Congressional 
  Commission on the Strategic Posture of the United States.......     8

                                APPENDIX

Prepared Statements:

    Perry, Dr. William J.........................................    35
    Schlesinger, Dr. James R.....................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
 THE REPORT OF THE CONGRESSIONAL COMMISSION ON THE STRATEGIC POSTURE OF 
                           THE UNITED STATES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Wednesday, May 6, 2009.
    The committee met, pursuant to call, at 2:05 p.m., in room 
2118, Rayburn House Office Building, Hon. John Spratt 
presiding.

 OPENING STATEMENT OF HON. JOHN SPRATT, A REPRESENTATIVE FROM 
          SOUTH CAROLINA, COMMITTEE ON ARMED SERVICES

    Mr. Spratt. I call the committee meeting to order. I 
welcome everyone here. Chairman Skelton, unfortunately, is not 
able to be here, but I am pleased to have the opportunity to 
chair this important hearing in his place instead.
    Led by the Subcommittee on Strategic Forces, which is ably 
chaired by Ellen Tauscher, this committee has a long tradition 
of attention to the United States' strategic posture and to 
nuclear weapons policy in particular. The National Defense 
Authorization Act of fiscal year 2008 calls for the 
establishment of a commission, a congressionally appointed, 
bipartisan commission, to analyze and make recommendations on 
our strategic posture.
    I am pleased to welcome the Commission chairman and vice 
chair and other members of the Commission, but in particular 
Bill Perry and Jim Schlesinger, to the hearing today.
    All of you deserve enormous credit for bringing this 
hearing, this investigative process, to the conclusion you have 
in the reports you filed today.
    In the interim reports you released last December, I agree 
with your broad definition of strategic posture and the 
priority you placed on dealing with the most urgent post-Cold 
War threat, which you termed in that report ``catastrophic 
terrorism.'' You went on to write or say, ``A terror group 
cannot make a nuclear bomb from scratch, so the best defense 
against this threat is to prevent terror groups from acquiring 
a nuclear bomb or the fissile material from which they could 
perhaps make a bomb.'' I have been making this argument since 
the demise of the Soviet Union, and I commend you for 
emphasizing it in your interim report.
    I have not yet had a chance to read your report in its 
entirety, but I can see that it places our most pressing 
strategic challenges in the right context.
    My friend and colleague, Ellen Tauscher, was the driving 
force behind the legislation that set up this commission, and I 
want to yield to her now for any opening remarks you may care 
to make.
    Ms. Tauscher.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. Thank you, Mr. Chairman, and good afternoon 
to everyone.
    This hearing will cover very important ground. Led by the 
Subcommittee on Strategic Forces, which I have the privilege of 
chairing, the House Armed Services Committee has long called 
for a vigorous and open debate on the future direction of the 
United States' strategic posture and a fresh examination of our 
nuclear weapons policy.
    In the National Defense Authorization Act for fiscal year 
2008, which the House approved almost exactly two years ago, we 
created a congressionally appointed bipartisan commission to 
analyze and make recommendations on the United States' 
strategic posture. The Commission was designed to foster and 
frame a debate on these critical issues. It was also designed 
to help forge a consensus on the United States' nuclear weapons 
policy that has been lacking for too long.
    It is with great pride and anticipation that just 14 months 
ago, this committee and the Senate Armed Services Committee 
announced the names of the 12 individuals who agreed to serve 
on the Commission. I see several of the commissioners here, and 
I want to thank each and every one of you for your service.
    I am most delighted to welcome the Commission Chairman and 
Vice Chairman, Dr. William Perry and Dr. James Schlesinger, to 
this hearing. I also want to praise the United States Institute 
of Peace, its President, Richard Solomon, and Paul Hughes, the 
Commission's Executive Director, for their vision, hard work, 
and shepherding of the Commission's final product and the 
publishing of the final report.
    I would also like to thank Secretary Gates and the 
Strategic Systems Programs of the Navy, where we were able to 
get the funding for this very, very important commission. As 
you know, forming commissions is a part-time job of the 
Congress. Finding the money is the very, very difficult job of 
the Congress. And without Secretary Gates and the Navy coming 
forward, we would not have the final product that we have 
today.
    Dr. Perry and Dr. Schlesinger, both of you have brought a 
great wealth of experience and expertise in your service to the 
country of many decades; and it could not be more timely or 
more important for this work to be done now.
    As the Commission noted in both its interim and final 
reports, what the United States does with its nuclear weapons, 
and how it does it, is linked to our ability to dissuade other 
nations from pursuing nuclear weapons and to our efforts to 
stem the proliferation of weapons of mass destruction (WMD) and 
nuclear weapons. Of course, other nations will continue to make 
their own decisions about whether to pursue nuclear weapons for 
many reasons. As the Commission has noted, as long as there are 
nuclear weapons, the United States must maintain a strong, 
safe, secure, and reliable nuclear deterrent.
    But, as you have also said, how we maintain and manage our 
nuclear arsenal directly impacts how credible we can be when 
pressing for nonproliferation. We have committed under Article 
VI of the Non-Proliferation Treaty to work in good faith toward 
nuclear disarmament. Both President Obama and Russian President 
Medvedev have recently reaffirmed this pledge.
    So the question we basically put before the Strategic 
Posture Commission was: How do we craft a nuclear weapons 
strategy that balances these fundamental challenges? How do we 
maintain an effective and credible deterrent, while trying to 
reduce our nuclear arsenal, and persuade other nations not to 
pursue nuclear weapons? Each of you has spoken eloquently about 
this need for balance in your testimony, and the Commission's 
final report reflects that challenge as well.
    Dr. Schlesinger, I appreciate your emphasis on the 
stabilizing effect and nonproliferation benefits that accrue 
from the extended deterrence we provide our allies.
    And Dr. Perry, I am grateful for your forceful observations 
about the urgency of our efforts to stem the proliferation of 
nuclear weapons. Let me recite a part of your testimony, Dr. 
Perry. And I quote: ``All commissioners accept the view that 
the United States must support programs that both lead and 
hedge; that is, programs that move in two parallel paths--one 
path that protects our security by maintaining deterrence, and 
the other which protects our security by reducing the danger of 
nuclear weapons.''
    That is at the heart of the matter. I want to commend you 
all for your leadership in steering the Commission to 
consensus. Thank you, again, for your work and for being here 
today.
    I agree with you, Dr. Perry, that we are at a moment of 
both opportunity and urgency, and I look forward to a good 
discussion.
    Congratulations to you all. Thank you, Mr. Chairman, for 
the time. And I yield back.
    Mr. Spratt. Thank you, Ms. Tauscher.
    Let me turn now to the distinguished Ranking Member, Mr. 
McHugh, for his opening remarks.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. I thank the chairman.
    I certainly want to begin by adding my words of welcome to 
two most venerable witnesses; and we are deeply blessed to have 
both Dr. Perry and Dr. Schlesinger, sage national security and 
foreign policy experts, with us here today with such long and 
distinguished histories of public service. Joining these two 
gentlemen, as has been noted, on the Commission are ten other 
extremely accomplished individuals, and we are fortunate, as 
both a committee and as a Nation, to have the service of these 
great people on what has certainly been a long-standing and 
repeatedly difficult and complex task.
    It goes without saying that the report before us is 
thoughtful and it is thorough. And I want to add my words, Mr. 
Chairman, to yours of appreciation to our Strategic Force 
chair, Ms. Tauscher, and Ranking Member, the gentleman from 
Ohio, Mr. Turner, for their great work. They asked for 
recommendations as to the most appropriate strategic posture 
and the most effective nuclear weapon strategy for the United 
States, and I think this great commission has really set the 
stage for delving into those answers.
    I expected, when this all began, widely divergent views on 
such matters as nuclear weapons and the policies associated 
therewith; however, it is, to say the least, unusual--and I 
would note, highly refreshing--to learn that this commission, 
embodied as it is with 12 thoughtful individuals, could achieve 
bipartisan consensus on these issues. I said to Dr. Perry 
before the hearing, perhaps they could give us here in this 
Congress some lessons on how to come and to work together.
    I am, most of all, hopeful that the Administration, working 
with Congress on both sides of the aisle, can now build upon 
this bipartisan momentum as it works to define its nuclear 
policies and posture in the future.
    The report highlights some basic truths and realities. 
First and foremost, it reaffirms the need for the United States 
to maintain a nuclear deterrent capability to deter potential 
adversaries and, equally important, to reassure our allies who 
depend upon our nuclear umbrella and, as a result, forsake 
developing their own nuclear arsenals.
    One month ago, the President delivered a speech in Prague 
calling for a ``world without nuclear weapons.'' But, as the 
Commission rightfully noted in its interim report, no less than 
a fundamental transformation of world political order will be 
required to obtain a goal of zero.
    While no President has wanted nuclear weapons, all came to 
the stark realization that possessing them was necessary as 
long as others had sought or had them in their possession. In a 
speech last fall, Secretary Gates observed, ``Try as we might 
and hope as we will, the power of nuclear weapons and their 
strategic impact is a genie that cannot be put back in the 
bottle--at least for a very long time.''
    While the President's long-term vision is laudable, I fear 
its allure may be a distraction from the near-term nuclear 
security and proliferation challenges faced by our Nation and 
the international community. These challenges are multifaceted 
and start with how we bring an end to the Iranian and North 
Korean nuclear programs--two efforts that, at least in my view, 
pose a real and immediate threat.
    A month ago--and perhaps coincidentally on the same day as 
President Obama's speech--North Korea launched a satellite atop 
a long-range Taepodong-2 ballistic missile, ignoring all 
international warnings. According to recent reports, some in 
the Administration expect that nation to conduct yet another 
nuclear test. In the meantime, Iran continues to perfect its 
assortment of long-range missiles and pursue key elements of a 
potential nuclear weapons capability, despite United Nations 
(U.N.) Security Council efforts.
    As the report before us observes, unless these programs are 
halted, ``There is likely to be a proliferation cascade that 
would greatly increase the risks of nuclear use and 
terrorism.''
    We are also faced with the challenge of securing nuclear 
materials and facilities worldwide, implementing safeguards 
into civilian nuclear programs to prevent breakout weapons 
capabilities, and preventing terrorist groups from acquiring 
nuclear bombs, weapons design, or fissile material. Both Russia 
and China are modernizing their strategic forces program and--
as this report points out--ironically, our edge in conventional 
capabilities has induced the Russians to increase their 
reliance on both tactical and strategic nuclear weapons.
    A credible and reliable U.S. nuclear deterrent will be 
required for the foreseeable future. However, senior government 
officials and many outside experts have expressed concern about 
our stockpile's long-term condition and the confidence that 
many have in that stockpile and its supporting infrastructure.
    The commander of U.S. Strategic Command (USSTRATCOM) 
testified this spring, ``The most urgent concerns for today's 
nuclear enterprise lie with our aging stockpile, 
infrastructure, and human capital.'' To that end, I believe we 
need a program to modernize our stockpile and infrastructure.
    I want to be clear; I am not calling for new weapons 
capabilities. However, I believe there are prudent steps we can 
and must take to introduce greater reliability, safety, and 
security features into our arsenal and, thus, create conditions 
for maintaining a highly reliable deterrent with fewer 
warheads. Furthermore, we should insist on conscious efforts to 
strengthen the U.S. nuclear infrastructure, support investments 
and stockpile stewardship, and sustain our exceptional 
scientific, engineering, and production workforce.
    What I find worrisome in this evolving nuclear policy is 
that they rest almost entirely on treaties and arms control 
measures. The previous Administration--wrongly in my view--
appeared to have an aversion to arms control. I believe it is a 
valuable tool, but it must be practical, verifiable, and 
enforceable. Furthermore, actions taken to decrease our nuclear 
forces should be counterbalanced by other means to strengthen 
our security and that of our allies--missile defenses, advanced 
conventional capabilities, unconventional capabilities, 
intelligence, nonproliferation, and other aspects of a 
comprehensive strategic posture strategy.
    Lastly, Secretary Gates warned we cannot predict the 
future. That uncertainty cannot be underestimated as we weigh 
the nuclear policy and posture decisions ahead of us.
    The Commission has given us much to consider. I want to 
thank them again, and I look forward to their testimony.
    With that, Mr. Chairman, I will yield back the balance of 
my time.
    Mr. Spratt. Dr. Schlesinger and Dr. Perry, the floor is now 
yours. Once again, thank you for the effort all of you put into 
this report. Your written testimony has been received; we will 
make it part of the record so you can summarize as you see fit. 
We welcome you to make a full statement of the positions that 
are taken in the report.
    By arrangement, Dr. Perry, I believe we will begin with 
you. The floor is yours. Thank you again for coming.

STATEMENT OF DR. WILLIAM J. PERRY, CHAIRMAN, THE CONGRESSIONAL 
    COMMISSION ON THE STRATEGIC POSTURE OF THE UNITED STATES

    Dr. Perry. Thank you very much, Mr. Chairman.
    When the Congress formed this Commission, they formed it 
deliberately and consciously as a bipartisan panel, and we have 
functioned as such. At our very first meeting, Congresswoman 
Ellen Tauscher came out to join us and urged us to come 
forward--in spite of the fact that we are a bipartisan group--
to come forward with a consensus report. Easy for her to say, 
but very difficult to execute. Nevertheless, we have come 
surprisingly close to that, as you will see in reading the 
report.
    I am going to use my time, Mr. Chairman, by trying to 
relate some of the major findings in our report to what I 
perceive to be the Administration's emerging strategic policy. 
I base this judgment primarily on statements and speeches made 
by President Obama.
    First of all, he has said the country--indeed, the world--
faces a new threat: nuclear proliferation and nuclear 
terrorism. But, at the same time, we need to hedge against the 
possible resurgence of the old threat. The Commission firmly 
agrees with that judgment.
    Secondly, he said that the Nuclear Non-Proliferation 
Treaty, the NPT, is critical in dealing with this new threat. 
The United States should work to strengthen the NPT and it 
should agree to put more resources into the arms of the NPT, 
dealing with inspection and enforcements of the International 
Atomic Energy Agency (IAEA). The Commission agrees with that 
judgment as well.
    Third, he has said that we--in order to get success in 
preventing proliferation, we need the effort of all nations; 
and to get their full cooperation entails that the United 
States and other nuclear powers make progress in disarmament. I 
agree fully with that judgment. The Commission members have 
different views on the extent to which our progress in 
disarmament and getting that full cooperation is really coupled 
together. Some of us think it is coupled quite closely--I am of 
that view--and others think the coupling is quite loose.
    Fourth, the President made a very clear statement in his 
speech in Prague that the United States seeks a world without 
nuclear weapons and, therefore, we should be reducing the 
number and the salience of our nuclear weapons. But, he went on 
to say, as long as nuclear weapons exist, it will be important 
for the United States to maintain safe, secure, reliable, and 
credible deterrent forces. I strongly agree with that full 
statement.
    Some of our members do not agree that we should be seeking 
a world without nuclear weapons or that it is even feasible to 
do that. But, even those members fully support the part of the 
statement of maintaining a safe, secure, and reliable 
deterrent, and they also support reduction in the numbers, 
provided that reduction is done bilaterally.
    Fifth, the President is seeking new treaties: the Strategic 
Arms Reduction Treaty (START), the Fissile Material Cutoff 
Treaty, and seeking to ratify the Comprehensive Test Ban Treaty 
(CTBT). Our commissioners agree with the goal of moving for a 
new follow-on START Treaty, and we offer some comments in the 
report about how that might be done. We also agree that seeking 
a Fissile Material Cutoff Treaty is desirable.
    On the Comprehensive Test Ban Treaty ratification, I 
strongly agree with that move. Indeed, I believe that the U.S. 
will not be able to assume leadership in the world if we do not 
actually make that ratification, but I must say that the 
Commission is split on that issue. About half of our members 
disagree with the goal of ratifying the Comprehensive Test Ban 
Treaty and, indeed, if the Senate proceeds to hold hearings on 
that, I suspect some of our members may be testifying on one 
side of the issue and others testifying on the other side.
    All of us, however, agree that there are certain steps that 
the Administration should take before they submit the treaty 
for ratification, most importantly, to get a clarification 
among the Permanent Five (P-5) as to exactly what is banned by 
the test ban treaty. There seems to be some ambiguity on that 
today.
    The sixth issue is missile defense. The President says he 
wants to move forward on the European missile defense system as 
long as the Iranian threat persists and he wants to seek a way 
to find cooperation on that with the Russians. The 
commissioners agree on both of those goals. I must say that our 
commissioners have a wide variety of views on the value and 
importance of missile defense. But on those two issues--at 
least on missile defense--we were able to reach an agreement.
    Seven, on civilian nuclear programs, the President has 
argued we should get and propose programs to get the loose 
fissile material under control, and stated we need a new 
international framework to discourage the spread of enrichment 
and processing in the civilian nuclear field. We strongly agree 
with both of those conclusions.
    And finally, the President has said we should roll back the 
North Korean nuclear program and prevent Iran from getting 
nuclear. The Six-Party Talks have failed to stop the North 
Koreans from building and testing the nuclear bomb, and the 
compliance with the Nuclear Non-Proliferation Treaty is in 
tatters. The President has argued there must be consequences 
under the NPT. We firmly agree with that. We do not offer him 
or you advice on how to achieve those goals but, quite clearly, 
those are very important goals.
    Now, beyond commenting to you on these policy issues, I 
wanted to highlight some specific recommendations we made on 
how to sustain the nuclear force; particularly, how to sustain 
this force in the face of American policies of no testing, no 
design of weapons of new capabilities, and with the budget 
limitations that have been existing.
    Under those three limitations, it is a challenge to sustain 
this nuclear deterrence. The key to that, I believe--indeed, 
all of our members believe--is the strength of the nuclear 
weapons laboratories. We are blessed in that they have 
outstanding technical staffs at these laboratories, and they 
have had remarkable success in what is called the Stockpile 
Stewardship Program (SSP) and the Life Extension Program (LEP). 
But as our weapons age, it is going to be harder and harder to 
sustain that success.
    Inexplicably, I believe our government has responded to 
that growing problem by cutting the staff at the weapons 
laboratories. We believe that that trend should be reversed and 
indeed, beyond that, we should add responsibilities for 
laboratories for other national security programs--for example, 
programs in energy technologies; programs in supporting our 
nuclear intelligence assessments; and, even more broadly, 
programs in research that have the effect of making a research 
lab--national research laboratory--out of the three weapons 
laboratories.
    If this is done, we believe it would be important to change 
the name of the laboratories. They are not just weapons 
laboratories, but they are national security laboratories. And 
they should be renamed, and they should be funded accordingly. 
We have a unique national asset in these weapons laboratories, 
and we should be treating it accordingly.
    Now, if that is done, they need to be given more freedom of 
action appropriate with that new mission. And we need, also, to 
look at their direction, which is at the National Nuclear 
Security Administration (NNSA), to whom the laboratories 
report. NNSA was created by Congress some years ago on the view 
that they would be able to provide that direction, but they 
have not had full success in doing that. We believe that the 
NNSA should have more autonomy of action than it has today, and 
it should be restructured so that it reports to the President 
through the Secretary of Energy instead of the present 
reporting arrangements.
    I would like to conclude my comments by looking briefly 
ahead.
    The future world out there is heading in the direction 
today in a very dangerous direction. There is a danger that we 
are going to have a collapse of the nonproliferation regime, 
the danger that there will be a cascade of proliferation in the 
world, particularly if Iran succeeds in going nuclear; and both 
of those will increase substantially the risk of nuclear 
terrorism. And there is a danger that the nuclear powers in the 
world will renew their nuclear competition.
    All three of those dangers are facing us right now quite 
seriously. But there is also a more hopeful future out there: 
that we will be able to contain the proliferation, that we will 
be able to stymie nuclear terrorism, and the nuclear powers, 
instead of competing in the nuclear field, will learn how to 
cooperate in that field.
    Our report tries to describe for you a strategy which leads 
to that more hopeful future rather than the more dangerous 
world that I have described.
    [The prepared statement of Dr. Perry can be found in the 
Appendix on page 35.]
    Mr. Spratt. Dr. Schlesinger, the floor is yours. We welcome 
your statement.

   STATEMENT OF DR. JAMES R. SCHLESINGER, VICE CHAIRMAN, THE 
CONGRESSIONAL COMMISSION ON THE STRATEGIC POSTURE OF THE UNITED 
                             STATES

    Dr. Schlesinger. Thank you, Mr. Chairman, Mr. McHugh, and 
Ms. Tauscher, our godmother.
    The Congress established the Commission on Strategic 
Posture in order to provide recommendations regarding the 
appropriate posture for the United States under the changed 
conditions of the early 21st century. The appointed 
commissioners represented a wide range of the political 
spectrum and have had quite diverse judgments on these matters.
    Nonetheless, urged by Members of Congress--not the least of 
whom was Ms. Tauscher--the Commission has sought to develop a 
consensus view. To a large and, to some, an astonishing degree, 
we have succeeded.
    Secretary Perry and I are here to present our consensus to 
this committee. We are, of course, indebted to the committee 
for this opportunity to present these recommendations.
    For over half a century, the U.S. strategic policy has been 
driven by two critical elements: to maintain a deterrent that 
prevents attacks on the United States, its interests and, 
notably, its allies; and to prevent the proliferation of 
nuclear weapons. The end of the Cold War and, particularly, the 
collapse of the Soviet Union/Warsaw Pact, along with the 
substantial edge that the United States has now developed in 
conventional military capabilities, have permitted this country 
sharply to reduce our reliance on nuclear weapons, radically to 
reduce our nuclear forces, and to move away from a doctrine of 
nuclear initiation to a new stance of nuclear response only 
under extreme circumstances of major attack on the United 
States or its allies.
    On the other hand, the growing availability of nuclear 
technology, along with a relaxation of the constraints of the 
Cold War, have obliged us to turn increasing attention to the 
problem of nonproliferation and, in particular, to the 
possibility of a terrorist attack on the United States.
    Secretary Perry has just spoken on the diplomatic issues 
and the problems of arms control, of preventing proliferation, 
and the risks of nuclear terrorism. I, for my part, will focus 
on the need--despite its substantially shrunken role in the 
post-Cold War world--to maintain a deterrent reduced in size, 
yet nonetheless reliable and secure, and sufficiently 
impressive and visible to provide assurance to the 30-odd 
nations that are protected under the U.S. nuclear umbrella.
    Since the early days of the North Atlantic Treaty 
Organization (NATO), the United States has provided extended 
deterrence for its allies. That has proved a far more demanding 
task than the protection of the United States itself. In the 
past, that has required a deterrent sufficiently large and 
sophisticated to deter a conventional attack by the Soviet 
Union/Warsaw Pact. It also meant that the United States 
discouraged the development of national nuclear capabilities, 
particularly during the Kennedy Administration, both to prevent 
proliferation and to avoid the diversion of resources away from 
the development of conventional allied capabilities.
    With the end of the Cold War and the achievement of the 
U.S. preponderance in conventional capabilities, the need for 
so substantial a deterrent largely disappeared. Nonetheless, 
the requirements for extended deterrence will remain at the 
heart of the design of the U.S. nuclear posture. Extended 
deterrence will remain a major barrier to proliferation; both 
the size and the specific elements of our forces are driven 
more by the need to reassure those that we protect under the 
nuclear umbrella than by U.S. requirements alone.
    Even though the overall requirements of our nuclear forces 
have shrunk some 80 percent since the height of the Cold War, 
nonetheless, the expansion of NATO and the rise of Chinese 
nuclear forces--significant, if modest--have altered somewhat 
the requirements for our own nuclear forces.
    Two: Even though the most probable source of a weapon 
landing on American soil increasingly is that of a nuclear 
terrorist attack, nonetheless, the sizing of our own nuclear 
forces, in addition to other elements of our deterrent posture, 
remains driven in large degree by Russia. Our NATO allies and, 
most notably, the new members of NATO, remain wary of Russia 
and would eye nervously any sharp reduction of our nuclear 
forces relative to those of Russia, especially in light of the 
now greater emphasis by Russia on tactical nuclear weapons.
    Consequently, the Commission did conclude that we should 
not engage in unilateral reductions in our nuclear forces, and 
that such reduction should occur only as a result of bilateral 
negotiations with Russia under a follow-on START Agreement. Any 
such reductions must, of course, be thoroughly discussed with 
our allies.
    Three: Our East Asian allies also view with great interest 
our capabilities relative to the slowly burgeoning Chinese 
force. Clearly, that adds complexity; for example, to the 
protection of Japan--though that remains a lesser driver with 
respect to overall numbers. Still, the time has come to engage 
Japan in more comprehensive discussions akin to those with our 
NATO partners in the Nuclear Planning Group. It would also 
augment the credibility of the Pacific Extended Deterrent.
    Four: The Commission has been urged to specify the number 
of the nuclear weapons the United States should have. That is 
an understandable question, particularly in light of the 
demands of the appropriations process in the Congress. 
Nonetheless, it is a mistake to focus unduly on numbers alone 
without reference to the overall strategic context. Clearly, it 
would be illogical to provide a number outside the process of 
negotiation with Russia, given the need to avoid giving away 
bargaining leverage.
    In preparation for the Treaty of Moscow, as with all of its 
predecessors, the composition for our prospective forces was 
subject to the most rigorous analysis. Thus, it would seem to 
be unacceptable to go below the numbers specified in that 
treaty without a similarly rigorous analysis of the strategic 
context, which has not yet taken place. Moreover, as our 
Russian friends have repeatedly told us, strategic balance is 
more important than the numbers.
    Five: Given the existence of other nations' nuclear 
capabilities and the international role that the United States 
necessarily plays, the Commission quickly reached the judgment 
that the United States must maintain a nuclear deterrent for 
``the indefinite future.'' It must convey not only the 
capacity, but the will to respond in necessity.
    Some members of the Commission have expressed a hope that 
at some future date we might see the worldwide abolition of 
nuclear weapons. The judgment of the Commission, however, has 
been that the attainment of such a goal would require a 
transformation of world politics.
    President Obama also has expressed that goal, but has added 
that as long as nuclear weapons exist in the world, the United 
States must maintain ``a strong deterrent.'' We should all bear 
in mind that abolition of nuclear weapons will not occur 
outside that ``transformation of world politics.''
    Six: We sometimes hear or read the query: Why are we 
investing in these capabilities which will never be used? This 
is a fallacy. A deterrent, if it is effective, is in use every 
day. The purpose in sustaining these capabilities is to be 
sufficiently impressive to avoid their ``use'' in the sense of 
the actual need to deliver weapons to targets. That is the 
nature of any deterrent but, particularly so, a nuclear 
deterrent. It exists to deter major attacks against the United 
States, its allies, and its interests.
    Years ago, the role and the details of our nuclear 
deterrent commanded sustained and high-level national 
attention. Regrettably, today, they do so far less than is 
necessary. Nonetheless, the role of the deterrent remains 
crucial. Therefore, I thank this committee for its continued 
attention to these critical matters.
    Thank you, Mr. Chairman.
    Mr. Spratt. Thank you, Dr. Schlesinger.
    [The prepared statement of Dr. Schlesinger can be found in 
the Appendix on page 43.]
    Mr. Spratt. I will start the questions.
    Unless there is another member of this panel that would 
like to have the opportunity to make a statement? Dr. Foster?
    Let me turn everyone's attention to something that receives 
too little attention, I think, and that is tactical nuclear 
weapons. We tend to think and talk about Submarine Launched 
Ballistic Missiles (SLBMs), Intercontinental Ballistic Missiles 
(ICBMs) and heavy-lifting systems, but these systems, if our 
principal concern is nonproliferation, may be a bigger danger 
to us than the larger systems which are subject to deterrence.
    In your report, you say ``The imbalance of non-strategic 
nuclear weapons will become more prominent and worrisome as 
strategic reductions continue and will require new arms control 
approaches'' that are assuring to our allies.
    Would you explain to us what your worries are about 
tactical nuclear weapons? Do we have a good count as to these 
weapons? Are we assured that they are securely held somewhere? 
Are we satisfied we know what we should know about the universe 
of nuclear tactical weapons abroad and in the world?
    Dr. Schlesinger. I believe that the Russians have removed, 
as they said they would, their tactical nuclear weapons to the 
Ural Mountains. Nonetheless, as the Soviet conventional forces 
have deteriorated--as the Russian conventional forces have 
deteriorated, the Russians have expressed increasing interest, 
doctrinally, on reliance of tactical nuclear weapons to protect 
the vast territories of Russia, which they fear are under 
potential attack from NATO and, notably in Siberia, 
underpopulated Siberia, China. As a consequence, they have 
maintained not only a doctrine but a sizable number of tactical 
weapons.
    We, in the United States, have tended to stress strategic 
weapons because we are reaching overseas, but we have a 
significant number of nuclear weapons that are tactical here in 
the United States. Nonetheless, as a result, our weapons are 
here in North America and the Russians are close to some of our 
allies in Europe, which causes them to be rather nervous.
    So I hope that our negotiators, as they deal with the 
strategic level, will also look at the total number of nuclear 
weapons, including tactical, so that there is some kind of 
balance that is maintained and, in consequence, reassure some 
of our allies.
    Mr. Spratt. Do you think then, this requires a special 
approach different from that of larger systems? For arms 
control purposes, do we require----
    Dr. Schlesinger. I think that we need to have an inspection 
system that we can rely on, and that we need to have a clear 
declaration by the Russians where their tactical nuclear 
weapons are, and an inspection of those tactical nuclear 
weapons.
    The strategic weapons are easier to deal with because we 
can count them by overhead reconnaissance.
    Mr. Spratt. Dr. Perry.
    Dr. Perry. I would emphasize one of the points that Dr. 
Schlesinger made, but I mostly want to emphasize the asymmetry 
between the U.S. position and the Russian position.
    The Russians perceive that they need their tactical nuclear 
weapons to buttress their conventional--decline in the 
conventional forces--and that leads them to put a major 
emphasis on tactical nuclear weapons.
    We, on the other hand, could meet our military requirements 
without any tactical weapons. The reason we keep tactical 
nuclear weapons is more a political reason, which is because 
our allies in Europe feel more comfortable when we have weapons 
deployed in Europe. So we do it to assure the credibility of 
our extended deterrence to our allies, not because we have a 
military necessity. We could meet the real needs of our 
allies--the military needs--with our strategic forces, but they 
feel much more comfortable if we have forces deployed in 
Europe.
    So it is a very different situation. There is great 
asymmetry between the two. Therefore, as we go into arms 
control and start to consider tactical weapons, we have to 
recognize it is going to be a difficult problem because of the 
asymmetry and the perceived need for tactical weapons between 
the United States and Russia.
    Mr. Spratt. One further question from me, and that is, the 
Commission also found that ``Missile defenses are effective 
against regional nuclear aggressors, including against limited 
long-range threats are a valuable component'' of our strategic 
posture. Would you explain what you meant there?
    And you went on to say that you would be concerned about 
actions taken on our part that increase--that lead to 
counteractions by Russia and China. Would you elaborate on what 
you mean there?
    Dr. Perry. We were focusing on the role of missile defenses 
to deter or, if necessary, defend against nuclear weapons in 
the hands of regional powers; for example, North Korea and 
Iran. But to the extent we build and deploy such systems, those 
systems also have some capability against Russia and China.
    So our concern here was that we do not want to have a 
missile defense so extensive and so capable that it threatens 
the Russians and the Chinese deterrent to the extent that they 
believe they are going to have to increase the number of 
missiles deployed. We do not want our missile defense systems 
to stimulate an increase in offensive missiles to be used 
against us. That was the point we were trying to make.
    Jim, would you like to comment on that?
    Dr. Schlesinger. I would like to add one point: there is a 
distinction between Europe, in which some of the nations are 
relatively indifferent to missile defense, and Japan, which has 
gotten deeply into missile defense.
    Mr. Spratt. Thank you very much.
    Mr. McHugh.
    Mr. McHugh. Thank you again for being here.
    I would like to pursue a little bit further, for my own 
edification, this issue of deterrence, particularly with 
respect to our allies. I appreciate Dr. Schlesinger's comments.
    Too often, perhaps understandably, when we think about our 
allies and the deterrence that our nuclear umbrella has 
provided, we think Europe. But there is another theater where 
Japan certainly has its limits as to how many questions they 
feel they can ask about the nuclear effectiveness or commitment 
of this Nation to continue to provide that umbrella before they 
strike out on their own. And the whole objective, it seems to 
me, of arms limitation, nuclear proliferation, is to try to 
keep those who don't yet have them from wanting to get them.
    I understand the comments about a number. Clearly, we can 
reduce warheads. But how do we go about partnering with our 
allies to make sure that they still feel we have the structure 
and the forces necessary to continue to provide that umbrella 
and deterrence?
    Is it through consultation? Is it at some point a 
mathematical formula? Actual deployments? How do you pursue 
that? Because if you are not successful, then other nations 
will make themselves a part of the nuclear family, will they 
not?
    Dr. Schlesinger. Well, no nation that I know of is 
reassured by mathematical formulas. It will require direct 
consultation. In the past, as I indicated in my earlier 
comments, we have not had those kinds of direct consultations 
with Japan, which is the country that has, perhaps, the 
greatest leaning amongst the 30-odd nations that we have under 
the umbrella, to create its own nuclear force; and, therefore, 
intimate discussions with the Japanese, I think, are mandatory 
at this stage.
    In the past, the Japanese have not really worried about the 
Soviet nuclear threat. But as the Chinese have increased their 
capability, they have become increasingly concerned about China 
and, thus, they want to have direct consultation with us and 
reassurance from us.
    In the case of Europe, some nations are relatively relaxed 
and others are nervous. For the most part, given the attitude 
of the European public, they would prefer that this whole 
question of nuclear weapons be left out of the headlines.
    Mr. McHugh. Dr. Perry, any thoughts?
    Dr. Perry. My comment is that this issue goes back many, 
many decades. There is nothing new about it.
    Back in the late 1970s, when I was Under Secretary of 
Defense, the Soviet Union was deploying their intermediate-
range missiles in Europe, threatening Western Europe; and we 
were planning an offset to that, a deterrent force to that, 
which we were doing in consultation of our NATO allies. And our 
judgment at the time was that we could provide that offset with 
what we call ``strategic weapons''--in this case, would be 
submarine-launched missiles.
    But it was very, very clear in consultation with allies 
that, although they saw the logic of the argument, they felt 
that it was necessary to have our forces deployed in Europe in 
order to give them the confidence that our deterrence would be 
upheld. And to a certain extent, that issue is still with us 
today even though conditions have changed quite a bit.
    So we still see great concern in both Europe and in Asia 
about the credibility of our extended deterrence. It is 
important for us to pay attention to their concern and not to 
judge whether deterrence is effective by our standards, but we 
have to take their standards into account as well. And the 
failure to do this, as suggested by Dr. Schlesinger, the 
failure to do this will be that those nations will feel that 
they have to provide their own deterrence--in other words, they 
will have to provide their own nuclear weapons. So that will 
lead to a failure of proliferation.
    Mr. McHugh. We discussed very briefly the CTBT. I would 
just be curious, Dr. Schlesinger and Dr. Perry, if you would 
care to comment, your view of the future for that treaty, 
should the United States sign on. Obviously--it seems to me, at 
least--there will be a number of nations that will never sign, 
or certainly at this point in time have very few incentives to 
sign. And although the treaty calls for a certain number of 
nations having to sign before it is binding, there is probably 
a policy imperative the United States would almost 
unilaterally, once signing it, adhere to it.
    What is your opinion on the CTBT?
    Dr. Schlesinger. Well, a number of nations in Western 
Europe, in particular, and the President have both said that 
they would like to see the United States ratify and the treaty 
come into force. The likelihood of the latter is very low, 
because all of the nations on Annex 2 must ratify before the 
treaty comes into force. That includes China, India, Pakistan, 
Egypt, Israel, Iran and, most notably perhaps, North Korea in 
this connection.
    If we were--some suggest that American diplomacy can bring 
them around. I would point out that we have had extended 
diplomacy with respect to North Korea over nuclear weapons for 
approaching 20 years, which has not been a signal success; and 
that if we put pressure on them, we are likely to be asked for 
a bribe, to put it bluntly.
    I think that Dr. Perry will point out that there is value, 
even if the treaty doesn't come into force, for diplomatic 
reasons. But my own judgment is that the substantive benefits 
of the treaty are modest and, therefore, I think that roughly 
half of the members of the Commission did not endorse 
ratification.
    Dr. Perry. I will repeat again that I believe that the 
ratification of the Comprehensive Test Ban Treaty enhances 
America's national security whether or not the treaty enters 
into force.
    I have had considerable discussion with leaders all over 
the world on this question, and I am persuaded that our signing 
will put substantial pressure on India, Pakistan, and China to 
ratify. I would be willing to bet that their ratification will 
follow ours if we do it in reasonable time. And that, itself, 
will be a substantial benefit to national security.
    I cannot conceive of the circumstances under which North 
Korea would willingly ratify the treaty, and I do not believe 
it makes any sense for the United States or other nations to be 
in a position of trying to bribe them to do so. But with or 
without their signature, I still think this is an enhancement 
of U.S. security.
    Mr. McHugh. Thank you, gentlemen.
    Mr. Chairman, I am going to yield back. Thank you for the 
side-bar consultation. I would just note that when our side's 
turn comes again, I will be yielding to Mr. Turner, who is the 
ranking member on Strategic Forces, to lead off the questioning 
after ours.
    And again I thank the two gentlemen. I think we have a lot 
of ground to cover on this issue of tactical nuclear weapons 
and how we approach discussion with our friends, the Russians, 
et cetera. But I am sure the other members want to talk about 
that as well. So I will yield back at this time.
    Dr. Perry. Can I make one other comment relative to the 
points Mr. McHugh was making?
    Mr. McHugh. He will say ``yes.'' He is a nice man.
    Mr. Spratt. Certainly, Dr. Perry. I beg your pardon. We are 
trying to resolve the problem of who speaks next up here, but 
you have the floor.
    Dr. Perry. Assuming this treaty comes to the Senate for 
ratification, there will be safeguards on the treaty. We 
certainly advocate safeguards. Some of those safeguards will 
require legislation and funding, and the House will be as much 
involved in that as the Senate will be. So I think this is a 
very important issue for the House.
    Certainly, one of the most important safeguards is 
maintaining the vitality and the strength of our weapons 
laboratories; and that requires funding, which the House will 
have to play a major role in.
    Mr. McHugh. Thank you, Doctor.
    Thank you, Mr. Chairman.
    Mr. Spratt. Ms. Tauscher.
    Ms. Tauscher. Dr. Perry and Dr. Schlesinger, I would like 
you to elaborate--each of you, if you don't mind--on your 
recommendations for the National Nuclear Security 
Administration.
    About 10 years ago, Mr. Thornberry was the chairman of the 
panel--and I was the ranking member--that helped create the 
National Nuclear Security Administration. It was a little bit 
of a compromise, to say the least. But we believed that it was 
very important to get the NNSA out from under what we 
considered to be a ``kudzulating'' bureaucracy.
    As you know, the Department of Energy (DOE) regulates 
refrigerator coolant and also has the nuclear weapons. It takes 
quite a wide brain pan to manage all of that, and we believe 
that for national security reasons, intelligence reasons, and 
many other reasons that the weapons labs and the complex in 
general and its budget policies needed to be elevated in a way 
that could give it much more standing and much more of a 
national importance, not just also something that the 
Department of Energy did.
    So I would really be interested in your talking about--in 
your report, you basically talk about that the NNSA should now 
report to the Department of Energy but, effectively, to the 
President. If you could expand a little bit on that, I would 
appreciate it.
    Dr. Schlesinger. As you will recall, in 1985, the Blue 
Ribbon Task Force recommended greater autonomy for the nuclear 
enterprise within the Department of Energy. Congress passed 
legislation in 1999 after a lag, establishing the NNSA.
    The problem is that the NNSA has not escaped the large 
bureaucracy of the Department of Energy. Instead of really 
dealing with the NNSA, it is affected by general counsel's 
office of the Department of Energy, environmental safety and 
health, and other elements within the DOE bureaucracy. And this 
bureaucratic tendency has trickled down to the NNSA itself, so 
that everything that is done out there in the labs or in the 
plants kind of gets examined not only by the site office, the 
successors to the operations office of the past, the NNSA, and 
by the Department of Energy, so that the costs keep rising.
    And one of our concerns in establishing national security 
laboratories is that who, elsewhere in the government, wants to 
pay those operating additional overhead costs, which can be 
quite excessive. We need to reduce the costs, the non-
operational costs, of the laboratories and the plants in such a 
way as to provide some leeway with regard to the total budget. 
And the Congress, of course, can help in that regard.
    With respect to reporting to the President through the 
Secretary of Energy, our intent was to get the DOE bureaucracy 
out of the way. And we need to have clear-cut lines of 
authority. Whoever is the head of NNSA must take it on as a 
task to reduce the kind of bureaucratic interference that has 
marked these recent years.
    Ms. Tauscher. Dr. Perry, can you also talk about the role 
that you imagine for the Cabinet officials that you recommend 
take on formal roles regarding the NNSA programming budget 
matters, like the Secretary of Defense, Secretary of State, 
Secretary of Homeland Security, and the Director of National 
Intelligence (DNI)?
    Dr. Perry. When we talk about this expanded national 
security role for the laboratories, it is today performing some 
of those functions already, but it is doing it on a hit-or-miss 
basis from the point of view of funding, and there is no 
overall guidance or overall organization of how this is done. 
And as Dr. Schlesinger has already indicated, the different 
agencies who fund this are paying for the direct work, but they 
are not paying for the overhead costs of that work.
    So there needs to be a better way of doing that. And our 
view was that that would entail creating a broader 
responsibility for the laboratories. That was part of this 
stated mission. It also requires some oversight, then, on the 
part of the Defense Department, for example, and the Director 
of Central Intelligence (DCI), which have the responsibilities 
for those programs. So we imagine there needs to be some form 
of a steering group of those various--formed of the secretaries 
of those various agencies which provide the oversight and the 
funding necessary to the providers of the programs.
    But the hit-or-miss program-specific funding that is done 
today is not an appropriate way to effectively and 
appropriately use the great skills where you have those 
laboratories. This is just one way of doing it. We are open to 
other ways of doing it, but it needs to be approached--we need 
a fresh approach to it--tailored to that particular set of 
problems.
    Ms. Tauscher. Dr. Schlesinger, I just want to state the 
obvious, and I am speaking as Congresswoman Tauscher, not 
somebody who is potentially nominated for another job in the 
State Department. I would like to chat with you a little bit 
about the CTBT. Since 1993, we have had an executive order, 
presidential executive order that has put the United States in 
a place of suspending testing. In 1999, when the CTBT was 
failed to be ratified, I think there was tremendous concern 
about science-based stockpile stewardship. The difference 
between 1993, 1999 and 2009 is not only a lot of time, but an 
overwhelming grade of ``A'' on the success of science-based 
stockpile stewardship.
    And effectively ratifying the Comprehensive Test Ban 
Treaty, there is an out that says if you have a national 
imperative you can test. So since we have been living since 
1993 without testing, since the Comprehensive Test Ban Treaty 
ratification allows for the out, could you talk to me and 
explain to us what the hesitancy is, considering that I think 
we have universal agreement that the stockpile stewardship 
program, the science-based program, is enormously successful 
and that in time since 1993, 1999 and now 2009, I think we have 
a lot more evidence that the safety, security and reliability 
of stockpile has been more than secured without testing.
    Dr. Schlesinger. Well, we don't know the last. We have the 
Stockpile Stewardship Program which has given us some basis for 
encouragement. But as you know, the directors of the 
laboratories have pointed out that the stockpile continues to 
age and that there are greater uncertainties. The question 
before us is whether or not the United States should surrender 
the option to test, given the uncertainties. I might point out 
that there are other members of this commission who feel more 
passionately on this subject than do I. But it was--this issue 
has been around as a dialectical tilting ground at least since 
the signing of the underground test moratorium, test treaty. A 
question is whether we are completing something that is in the 
minds of the proponents of the last 60 years when it is not of 
any substantive benefit to the United States.
    It is, as Bill Perry points out, potential diplomatic 
advantage, as you will no doubt hear when you arrive in the 
Department of State. But symbolism has a role to play in 
diplomacy. It is not necessarily the ideal element in judging 
force posture. Years ago, somebody observed that the CTBT was a 
bad idea whose time has come. And the question that was posed 
to me the other day by somebody from the laboratory said, each 
element of that should be examined carefully, why is it a bad 
idea and why has its time come?
    Ms. Tauscher. Thank you, Dr. Schlesinger. Dr. Perry.
    Dr. Perry. I was the Secretary of Defense at the time we 
signed the Comprehensive Test Ban Treaty. All of these issues 
were considered at that time. No one in the Department of 
Defense, and certainly not the Joint Chiefs of Staff, was 
willing to say me signing this treaty means we never again can 
conduct tests. It means we agree not to conduct tests. But the 
treaty has, as you all know, a provision by which we are going 
to withdraw if we see our supreme national interest at stake. 
We felt that wasn't quite strong enough at the time, so we 
added to it, as one of the safeguards, that the director of the 
weapons laboratory had to certify on a yearly basis the 
adequacy of the stockpile to perform the deterrence missions.
    And that the President, on receiving this then, if he got a 
statement that said they were unable to certify it, that was a 
clear signal where we would withdraw from the treaty and begin 
testing. So I don't think it is an issue that we have forever 
given up our right to test. We are simply formalizing in a 
treaty the agreement we have already made--the policy we have 
already established--not to test. And we still have the--we 
will still have, even after signing the treaty, the provision 
that we can withdraw from it if we see the--national interest.
    Now, if I thought we were going to have to exercise that 
withdrawal provision any time in the foreseeable future, I 
would not be in favor of the treaty. As I look at what we are 
doing in the laboratories and on the Stockpile Stewardship 
Program and the Life Extension Program, the considerable 
technical capabilities we have there, I am confident that that 
is not going to happen. That is contingent though on the 
Congress and including the House, not just the Senate, funding 
adequately the work that goes on at the laboratories.
    Ms. Tauscher. Thank you, Mr. Chairman. I yield back.
    Mr. Spratt. By unanimous consent, we turn now to Mr. 
Turner. And after his questions we will recess momentarily to 
go to the floor. We have three votes. We beg your indulgence. 
We will be back as quickly as possible. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. And I want to thank 
Ranking Member McHugh for recognizing me. Dr. Perry, Dr. 
Schlesinger, thank you so much for taking your long legacy of 
great accomplishment in this field to give us some present 
guidance to Congress. I am the ranking member of the Strategic 
Forces Committee and I want to recognize our Chair's work, our 
Chairman, Ellen Tauscher on this, and her leadership so that we 
could have this document for Congress to take a look at. In 
looking at both your testimony and the report, there is one 
area that I wanted to highlight.
    Dr. Schlesinger, you said in your written testimony, ``why 
are we investing in these capabilities which will never be 
used?'' And you said, ``This is a fallacy. A deterrent, if it 
is effective, is in `use' every day.'' And then I look at the 
report and its writings in the executive summary. And the 
report says, ``so long as it continues to rely on nuclear 
deterrents, the United States requires a stockpile of nuclear 
weapons that are safe, secure, reliable, and whose threatened 
use in military conflict would be credible.''
    You go on to cite, the controversy that occurred over the 
Reliable Replacement Warhead discussion, and indicate there 
appears to be some confusion as to what we need to do and how 
we go forward. And then you conclude with something to the 
effect of, ``so long as modernization proceeds within the 
framework of existing U.S. policy, it should encounter minimum 
political difficulty.'' Well, I thank you for those words 
because you contribute a great deal of insight with your report 
as how to get over the issue of political difficulty, because 
this is an area that requires congressional attention and 
congressional investment.
    Even if we all have the goal of the future elimination of 
nuclear weapons, that investment of that strategic and 
important deterrent is echoed throughout your report.
    Another theme in your report on this posture review is the 
issue of strategic balance. And I have here some of the quotes 
that you have given in the report about Russia's strategic 
forces modernization. For example, you say, ``current strategic 
modernization programming includes various elements. Russia is 
at work on a new intercontinental ballistic missile . . . a new 
ballistic missile submarine and the associated new missile and 
warhead, a new short-range ballistic missile, and low-yield 
tactical nuclear weapons.'' It was on page 12.
    And you say, ``Russia's military leaders are putting more 
emphasis on non-strategic nuclear forces'' on tactical use in 
the battlefield, also on page 12. And you indicate, ``senior 
Russian experts have reported that Russia has 3,800 operational 
tactical nuclear warheads,'' and you expound by saying, ``the 
United States does not know definitively the numbers of nuclear 
weapons in the Russian arsenal.'' I would like if you would, 
both of you, to speak for just a moment on the need for 
strategic balance as we look to Russia's efforts of 
modernization.
    I know we are all currently focused on Iran and North 
Korea, but what should we look to with what the Russians are 
doing and how that might be some impetus for us to look for 
investment in our own nuclear complex. Dr. Perry.
    Dr. Perry. I would say, first of all, Mr. Turner, that 
Russia's needs--security needs--are very different from the 
United States' security needs. The most important element of 
the difference is the asymmetry in our conventional forces. We 
have, probably, the most powerful conventional forces in the 
world. Russia perceives, and I think correctly, that their 
conventional forces are quite weak, particularly relative to 
the neighborhood in which they live. So they have a totally 
different need for tactical weapons than have we. Having said 
that, when we consider any arms agreements with them, all of 
our commission believes at some level of reduction we should 
not go lower until or unless their tactical weapons are 
considered in the equation. Because there is, in terms of 
maintaining our extended deterrence, the perception in the 
minds of our allies is going to be very important on whether 
they believe we can continue to maintain that extended 
deterrence. And if they see an overwhelming superiority of 
tactical nuclear weapons in Russia relative to the United 
States, then we will lose some of the credibility of our 
deterrence.
    So indeed, the need is very different between Russia and 
the United States. But at some level, we have to consider their 
tactical weapons very seriously in any balance.
    Mr. Turner. Dr. Schlesinger, on the issue of modernization 
and our deterrent?
    Dr. Schlesinger. I think that Dr. Perry has covered it to a 
substantial degree. We don't need the same number of tactical 
nuclear weapons that the Russians have. We do not need to match 
them. In the strategic area, we do need to match them because 
the Russians fear that they cannot defend their vast 
territories against a hypothetical NATO attack which they talk 
about publicly and an engagement with China which they talk 
about privately, given the underpopulation of Siberia. So they 
feel a need, and we do not have to match them. But we have to 
be responsive to the requirements of our allies. That involves 
the dual capable aircraft, which are in Europe at the present 
time, which some of our military folks have thought are cost-
ineffective and should be removed.
    We must not remove those capabilities in Europe without 
careful consultation with our allies. The Japanese have 
different requirements that they have expressed to us with 
regard to the specific components of local nuclear forces, and 
they have to be taken into account in a different context. But 
overall, we do not need to match the Russians in terms of the 
aggregate number of tactical nuclear weapons.
    Mr. Turner. Gentlemen, thank you.
    Mr. Spratt. We have got about three minutes to make it to 
the floor. We will be back as soon as we possibly can. We 
appreciate your indulgence. And when we come back, Ellen 
Tauscher will take the gavel because I have a meeting with the 
Speaker. Thank you again for your participation and for your 
report.
    [Recess.]
    Ms. Tauscher [presiding]. The committee will be in order. 
At this time I am happy to yield five minutes to the gentleman 
from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you. If the timing was just right, Madam 
Chair, you could call the committee to order, then run down 
there and testify if they just timed this confirmation stuff 
just right. But I guess it is not to be. Thank you all, Dr. 
Schlesinger and Dr. Perry, for being here. I appreciate your 
patience with us as we went to vote. I think it is apparent to 
those that have studied your report and to those of us that 
have been more peripheral in our study of your report that it 
is a very serious compilation of these very important issues.
    I want to ask more, I guess, of a diplomatic question. It 
seems to me that the timing of your report is a good one in 
terms of the relationships between the United States and Russia 
that, I don't know, in my amateurism, I have sensed, in the 
last six or eight months or so, that there seems to be renewed 
interest in the relationship, which, I think, over the last 
couple of decades, we Americans probably haven't done enough to 
cultivate. But it seems like these issues that you have brought 
up, in all their complexity and detail, are an excellent 
starting point for a relationship between a new administration 
and leadership in Russia. And I would like to hear you both 
comment on that question in terms of a broader relationship 
between the United States and Russia.
    Dr. Perry. I think that is a very important point, Dr. 
Snyder. I see that we have a major opportunity now in forming a 
new relationship with Russia. And what I think Vice President 
Biden referred to as ``pressing the reset button,'' which I 
would call it to be in computer terminology ``rebooting.'' I 
have talked with nearly every major leader in Russia about this 
in the last two months. The President, the foreign minister, 
the National Security Advisor, they are all very anxious to do 
that.
    So this is a great opportunity. I must say, though, it is 
not an opportunity we foresaw when we were working on the 
report. This has only developed in the last few months. And by 
the time it developed, our report was already pretty much put 
together. In the report, we urged working to establish such a 
relationship. And by the time we put the final words down in 
the report, we were talking as if that was a great opportunity 
to do that. But we did not know that that opportunity was going 
to exist six months ago, eight months ago. So it is a big 
opportunity, though.
    Dr. Schlesinger. We are going to have our ups and downs 
with Russia, but the important thing is to focus on the 
priorities. With Russia, our priorities are dealing with 
terrorism, dealing with proliferation, and dealing with arms 
control. And that other issues that come up, for example, the 
controversy over Georgia should not mislead us about what is 
central--or should be central--in our relationship. If one can 
object to a tenor of American foreign policy, it is a tendency 
to start chasing rabbits off the main trail rather than focus 
on what is central to our relationship. That applies to Russia, 
it applies to China and to others.
    Dr. Snyder. And I am sorry, I left for a while so you may 
have discussed this but, in the report, you talk about the 
Nunn-Lugar funds and that additional funding for Nunn-Lugar 
would be money well spent. And I probably should ask the Chair 
because she would probably be able to answer my question, but I 
will ask you. I have sometimes heard the argument over the last 
several years as somebody who has been very supportive of this 
program that it has not just been a funding issue; that, in 
fact, it has been, you know, are projects ready to use the 
funding? But you all concluded that the primary obstacle was 
funding the further progress, is that accurate? Or would you 
amplify on your statements about Nunn-Lugar, please?
    Dr. Perry. I think two things are necessary to make further 
progress in Nunn-Lugar. The first is the funding. That is a 
necessary condition. It also requires a Russia that is 
motivated to fully cooperate. And so it gets back to your first 
point, that we seem to be developing a new relationship with 
Russia, and that new relationship should enable us to 
cooperate, and cooperate effectively, on things that can be 
done to reduce the risk of proliferation. I don't believe that 
proliferation is at the top list of their priority of things 
that need to be done now--dealing with proliferation--but it is 
on their list, and therefore we ought to be able to find some 
way of cooperating in that field if we can get other things off 
the table.
    I believe, myself, that the main factor in souring a 
relationship between the United States and Russia in the last 
couple of years has had nothing, really, to do with this 
nuclear field as such; it has had to do with the NATO 
expansion, it has had to do with the dispute over Georgia. But 
if we can get those issues resolved, or at least set aside, 
then we ought to be able to deal effectively and cooperatively 
with them in the nuclear field.
    Dr. Snyder. I think missile defense has probably been one 
of the issues that made the relationship difficult too. Thank 
you, Madam Chair.
    Dr. Schlesinger. Dr. Snyder, new relationship or old 
relationship, Nunn-Lugar overall has been a substantial 
success. Nothing works perfectly. Of course, funding is not the 
only issue. It is difficult dealing with the Russians because 
of security problems. But if you look over the years, their 
nuclear weapons are now reasonably well protected. They haven't 
done as well on fissile material. We would hope that they will 
do better. But the fact that their nuclear weapons are under 
good security is an accomplishment that would not have occurred 
without Nunn-Lugar.
    Ms. Tauscher. I am happy to yield five minutes to gentleman 
from Maryland, Mr. Bartlett.
    Mr. Bartlett. Thank you. Dr. Schlesinger, when you said in 
your testimony that a deterrent, if it is effective, is in use 
every day. I remembered the emotional response I had when I was 
privileged to spend an overnight on one of the big boomer subs. 
And standing there beside that missile tube, the captain said, 
you know, if we ever have to use one of these, we will have 
failed. Thank you for reminding us how important they are. I 
think in practice, everybody knows the rules of the Nuclear 
Non-Proliferation Treaty. If you don't have nuclear weapons, 
you absolutely certainly cannot have nuclear weapons until you 
have them, and then it is okay and you are a member of the 
club. Witness India and Pakistan, North Korea, Iran tomorrow; 
certainly the threat is proliferating.
    I think that there is a very high probability that our 
antiballistic missile shield in Alaska will never be used. The 
only country, I think, that would use it to come over the pole 
today is Russia, and they would very quickly overwhelm our 
system there. There is no other country--I believe China may be 
tomorrow--but no other country that is going to come over the 
pole, no other country that is going to launch from their soil. 
We would certainly detect that, and we would vaporize them and 
they know that.
    I think that if a nuclear weapon is delivered by missile on 
us, it will certainly come from the sea. They will then sink 
the ship and they will believe there are no fingerprints. You 
may argue that there is a signature in the weapon or a 
signature in the missile that you could detect. I am not sure 
they believe that. And I am not sure we would be certain that 
it wasn't a nonstate actor who was doing that, so our response 
would be very difficult to predict. Since this is true, and we 
have large coasts, how are we going to deter that kind of an 
attack, and how could we protect ourselves from it?
    Dr. Perry. Mr. Bartlett, let me take one component of your 
question which has to do with North Korea. It is not the whole 
story you are talking about, but it is an important part of 
that story. I do not believe the United States should accept 
North Korea as a nuclear power. And I believe that the U.S. 
Government should make every effort to roll back nuclear 
weapons they have, and I think there is some possibility we can 
be successful in that. The possibility of success depends on 
being able to apply what, I think, could reasonably be called 
coercive diplomacy. Of course, for diplomacy to have a chance 
of success, it is going to require the cooperation of several 
other key nations, most importantly China. So the key that I 
see to having any success in rolling back the North Korea 
nuclear program is finding a way of getting a common strategy 
with China on how to do that. Because while we supply some of 
the--have some of the positive incentives for North Korea, or 
more importantly South Korea and Japan have some of the 
positive incentives for North Korea, all of the negative 
incentives short of military action are in the hands of China. 
And so we have to have some cooperation from China to make that 
happen. Thank you.
    Mr. Bartlett. Jim.
    Dr. Schlesinger. Bill has outlined a world of hope about 
nonproliferation, and I hope that he is correct. But our--I am 
sorry. Bill has outlined some hope with regard to 
nonproliferation, and I hope he is correct. But as you have 
indicated----
    Ms. Tauscher. Dr. Schlesinger, your mike is not on.
    Dr. Schlesinger. Oh, I see. Bill has, the third time, 
outlined hope with regard to nonproliferation. I hope he is 
correct. Needless to say, I worry about the North Koreas and 
Irans of this world. But our record that you mentioned at the 
outset of your comments--about India and Pakistan are now part 
of the club--our overall record over the last 60 years has not 
been awe-inspiring. We attempted to deflect Israel. We were not 
particularly hardworking at that, but we were not successful. 
We attempted to deflect France and of course, as you mentioned, 
India and Pakistan. So we must work hard on seeing whether, in 
this new environment, nonproliferation becomes a higher 
priority for many of the countries of the world. But we must 
also recognize that it is not a certainty that we will be 
successful. And the--I think that is sufficient.
    Mr. Bartlett. Thank you very much. I remain concerned about 
the challenge of deterring nations that would attack us from 
the sea without any notions to where it came from. We have huge 
coasts on both sides. I am not sure how we protect ourselves 
there. I think this is a vulnerability that warrants 
considerable attention. Thank you all very much for your 
service and your testimony.
    Ms. Tauscher. Thank you, Mr. Bartlett. I am happy to yield 
five minutes to the gentlewoman from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Madam Chair, and this is really a 
great day for us to arrive at this point after several years of 
working on this issue, and it is due largely in part, I 
believe, to your leadership. So it is pretty exciting to be 
here together doing this. Gentlemen, thank you, both of you 
doctors for being before us and for all of your service to our 
Nation. I think that one of the biggest threats the world faces 
today is the terrorist groups like al Qaeda, seeking and 
working to obtain nuclear weapons. And the IAEA has proposed 
strengthening the NPT safeguards to enhance protection of 
fissile material, but it is not getting the support that it 
needs for their proposals.
    So my question to you would be, considering--what should we 
do to try to prevent terrorists from obtaining these nuclear 
weapons? In particular, what are the reasons that the IAEA is 
not getting support for the proposals they put forward on this?
    Dr. Perry. I believe that the proposals of the IAEA for 
strengthening the--for the so-called additional protocols and 
strengthening their ability to inspect, for example, are well 
founded and would have been very--would have enhanced the whole 
world's security had they been accepted. Secondly, I have not 
yet given up on those proposals, or something like those 
proposals being accepted. To try to get to your question, what 
is the reason the nations have turned that down: it is not a 
very happy reason, but nations--Iran and other nations--have 
been able to make the case that they have a right to enrich 
uranium, they have a right to reprocess plutonium, and that 
nuclear powers like the United States, Russia, and so on should 
not be trying to abridge that right. They have put it as an 
issue of unfairness.
    Ms. Sanchez. So sort of a sovereign right and, who are we 
to have it and not they?
    Dr. Perry. And that in my mind is a fallacious issue, but 
it is an issue which has gained quite a lot of resonance among 
60 or 70 countries--nonnuclear countries--who have been swayed 
by that argument. I think we need to be much more effective in 
addressing that argument. It is not--when they join the NPT, 
their rights come along with obligations, and those 
obligations, of course, have to do with not taking any actions 
that would use the facilities and equipment and technologies 
that have been given them to move towards nuclear weapons.
    So this battle--this debate is not yet over. And I think we 
should be much more effective in pursuing the move to get 
support for the additional protocols of the IAEA. Otherwise, 
the move to contain the uranium enrichment and protocol will be 
lost and the probability of a nuclear weapon falling in the 
hands of terrorists is greatly increased.
    Ms. Sanchez. Doctor, do you have anything to add?
    Dr. Schlesinger. Well, we have had somewhat--we, the United 
States have had a somewhat checkered career with the IAEA. 
Unfortunately, we have allowed, in recent years, for our 
relations to deteriorate, which is a mistake. The IAEA is an 
independent body; it has been influenced by the United States 
effectively in the past, less so today. I hope with a change of 
certain personalities--both in the Administration and at the 
IAEA--that those relationships can be restored and that the 
United States can have an improved relationship.
    Unfortunately, in the eyes of many people, the IAEA is just 
another part of the United Nations, which many don't like. The 
fact of the matter is that the IAEA is, has been and, 
potentially, will be a very effective part of nonproliferation 
and American foreign policy, and that we ought not to allow 
personal estrangements to affect our overall support. On a 
broader issue, going back to the Atoms for Peace Program 1956, 
it is my personal judgment that that was based upon the 
premise--and I think Bill may have covered this--that was based 
upon the premise that those who received technical information 
under Atoms for Peace had also accepted and embraced 
nonproliferation. If they failed to do that, they are not 
entitled to technical information, as in the case of Iran.
    Ms. Sanchez. Thank you. My last question. Secretary Gates 
has stated that, currently, the U.S. is the only declared 
nuclear power that is neither modernizing its nuclear arsenal 
nor has the capability to produce a new nuclear warhead, and 
has called on the modernization of nuclear security complex and 
the stockpile itself. I agree with President Obama and 
Secretary Gates that as long as nuclear weapons exist, the 
United States needs to maintain a safe, secure and effective 
arsenal. However, I am concerned by what exactly maintaining an 
effective and modernized arsenal entails and how it would be 
perceived by the international community.
    So my question to the two of you is: What is the 
Commission's recommendation for the most efficient way to 
maintain a credible, safe, secure and reliable deterrent and, 
with the comments of Secretary Gates, what has been your 
knowledge of what the rest of the international community has 
said to the fact that we might want to start back up?
    Dr. Perry. A major section of the report goes into that in 
quite a lot of detail. I will try to summarize the main points 
from it. That an important key is maintaining robust, healthy, 
vigorous weapons laboratories. And related to that is a strong 
Stockpile Stewardship Program and effective Life Extension 
Program. As we proceed--but as our weapons continue to age, we 
may find that the things that they have done in the past to 
keep the credibility of our deterrence may not be adequate.
    And so I believe we should be open to, as we take each new 
weapon into its Life Extension Program, we should be open to a 
variety of approaches on how that should be done. If it can be 
done through the Life Extension Program techniques in the past, 
it should be done that way. If it requires mining other weapons 
for the components to get that reliability we could do it that 
way. But if it involves a new design, I think we should be open 
to doing that also. And the decision should be based on the 
technical necessity, not on a political judgment.
    Ms. Sanchez. Thank you, Doctor. Doctor, do you have a 
comment to add?
    Dr. Schlesinger. I think that we ought to drop phrases like 
``modernization'' and ``new weapons'' from our vocabulary, and 
that we just talk about refurbishment, maintenance of the 
stockpile. Some of these weapons are aging. As Bill mentioned, 
we need to have life extension systems. We ought not to be 
arguing about modernization, which has created more clouds than 
light. And, if we can get over what have been some unnecessary 
quarrels from the past, we would be far better off.
    Ms. Sanchez. Thank you, Doctor. Thank you, Madam Chair, for 
your indulgence.
    Ms. Tauscher. Thank you, Ms. Sanchez. I am happy to yield 
five minutes to the gentleman from Colorado, Mr. Coffman.
    Mr. Coffman. Thank you, Madam Chairman. One question from 
both of you, and that is: to what extent are we still relying 
on the mutually assured destruction doctrine, and do you think 
that missile defense systems have to--or to what extent missile 
defense systems have a stabilizing or destabilizing impact on 
security?
    Dr. Schlesinger. You are going to buck that one to me, 
Bill. With regard to mutual assured destruction: that has 
declined, and declined substantially, in importance. I do not 
expect that the Russians are prepared to attack us, and I do 
not expect that we would need to respond with a full strike. I 
think that both sides have learned from the past that a lot of 
our rhetoric got out of hand. So we are going to maintain an 
assured destruction capability as a hedge, as Bill might say, 
against the possibility--however remote it may be--that the 
Russians would engage in a strike against the United States, so 
as to deter them.
    But I think that that possibility is vastly remote. With 
respect to the problems of missile defense, I think that we 
have to recognize that neither Russia or China are going to be 
put off by an American missile defense. They have already 
demonstrated the capacity of maneuverable warheads, penetration 
aids, against such a defense and they can penetrate it.
    Years ago, going back to the 1960s, when the Soviet Union 
deployed the missile defense around Moscow, Secretary McNamara 
said, no, we are not going to try and create a damage-limiting 
capability, we are not going to have a missile defense of our 
own; we are going to use offensive weapons to penetrate that 
defense. That was our strategy then, and that would be the 
strategy of Russia or China if they thought that we had a thick 
missile defense. And as a consequence, there is always this 
interaction with sophisticated nuclear powers that a missile 
defense that worries them will simply lead to an expansion of 
their offensive forces, which is something that we do not want 
to see.
    Dr. Perry. I associate myself with the answer that Dr. 
Schlesinger just gave; the same answer.
    Mr. Coffman. Thank you, gentlemen. Does the success of 
mutually assured destruction assume that we are dealing with 
rational nation-states?
    Dr. Perry. Yes.
    Mr. Coffman. Would you classify Iran as a rational nation-
state?
    Dr. Perry. Yes, I would. I can see many other instances 
where it does not apply; in particular, with a terrorist 
attack. But everybody can come to their own judgment about how 
rational Iran is. My own belief is that they understand that if 
they attack the United States, their country would be destroyed 
and that they are not seeking suicide.
    Mr. Coffman. Is North Korea a rational nation-state?
    Dr. Perry. I think yes to that, also. And for the same 
reason, I do not think the regime in North Korea is seeking 
suicide.
    Dr. Schlesinger. In my view, you hear irrational statements 
from the President of Iran. Whether or not he completely 
believes them or whether he is engaged in stirring up support--
domestic support--for his position in the run-up to the 
election or whatever, the supreme leader in Iran maintains 
control. And it is not the President of Iran, who has, from 
time to time, been pulled back from some of his bolder 
statements by other Iranians. I worry about the degree of 
control that the Iranian government has over the Iranian guards 
who express flamboyant statements that exceed those of the 
President of Iran.
    And I think that one of the things that we ought to be 
doing in our own deterrent policy is to make sure that we know 
where the guards' core bases are and, in the event of trouble, 
that they get wiped out.
    Mr. Coffman. Thank you, Madam Chairman. Thank you 
gentlemen.
    Ms. Tauscher. I am going to yield to Mr. Langevin for five 
minutes, the gentleman from Rhode Island.
    Mr. Langevin. Thank you, Madam Chair. Dr. Schlesinger, Dr. 
Perry, thank you for your testimony here today and the fine 
work you have done on this report. If I could go back to the 
discussion just a minute ago about the role of missile defense 
and, in particular, the relations with China and Russia. Again, 
the Commission found that missile defense is effective against 
regional nuclear aggressors, including against limited long-
range threats, are a valuable component of U.S. strategic 
posture. And you recommend the United States should ensure that 
its actions do not lead Russia or China to take actions that 
increase the threat to the United States and its allies and 
friends. Can you expand on that discussion a little more about 
the balance of missile defense before it provokes Russia and 
China to take action because we went too far with a strong 
missile defense program?
    Could you talk about the role that missile defenses play in 
achieving that objective, the strategic stability that the 
Commission emphasized throughout the report? And is there a 
way, by the way, to enlist Russia and China's support for a 
missile defense system so that it would protect us against 
either accidental missile launches or an irrational actor who 
would launch a missile.
    Dr. Perry. Well, a system to provide defense against a very 
limited Iranian capability should look very different from a 
system designed to defend against a Russian larger-scale 
missile attack. And, therefore, we ought to be able to have one 
without threatening the other. Moreover, to the extent we are 
focused on defense against Iran, a nuclear missile in Iran is 
actually a greater threat to Russia than a nuclear missile is 
against the United States. And, therefore, there ought to be 
some way of not only communicating with Russia on this problem, 
but maybe even cooperating in providing that defense. And to 
the extent you have that communication and even the possibility 
of cooperation, then there should be no basis for the Russians 
increasing or expanding their missile program to try to offset 
this missile defense which, in any event, is not directed 
against them. But it does require good communication with the 
Russians.
    Mr. Langevin. If I could just interject there, what I find 
troubling, of course, is that when the previous Administration 
took steps to begin the process of putting the missile defense 
system somewhere in Europe, the Russians found that very 
provocative, and it clearly increased tensions between the 
United States and Russia. Is there no way to bring them to the 
table to support a limited defense, missile defense system?
    Dr. Perry. Well, we have--I think the first step in getting 
that issue resolved is very close communications with the 
Russians which would start off with a joint threat assessment. 
We and the Russians, both looking at what Iran is doing, 
together assessing what the threat is and what should be done 
about that. Because I say, again, they are at least as much a 
threat to Russia as they are to the United States. And if we 
are working together on this issue, then it should not become--
it should not morph into an issue in which the system is seen 
as posing a threat to Russia. I believe this is a solvable 
problem. And based on my own discussion with Russians over the 
last two or three months, I think we are probably already on 
the way to getting that problem solved.
    Dr. Schlesinger. There has been discussion over the course 
of the last 30 or 40 years about unauthorized launches; 
alternatively, accidental launches. I think that a missile 
defense for either China or Russia clearly directed against 
that remote possibility would be acceptable to them. What would 
not be acceptable is a degree of deployment of missile defenses 
that clearly undermines their own deterrence. Now, there has 
been a good deal of unnecessary talk about our deployment in 
Poland and in Czech Republic. It seems to me that we decided to 
deploy before the Iranian threat really had developed. But the 
most important thing is: in the eyes of the Russians, they 
profess that this is a threat to their own deterrent and they 
go on and make speeches on that subject.
    The fact of the matter is they know full well that it is 
not a threat to their deterrent and they say privately, why in 
God's name did you deploy in Poland and the Czech Republic? If 
you had deployed in France or Britain or Germany, we would not 
have this problem, but you are provoking us by deploying in 
former satellites of the Soviet Union, and we regard that as 
provocative. I think that that might have been avoided by the 
conversations with the Russians early on.
    Mr. Langevin. Thank you both for your answers and your 
testimony today, and your invaluable service to our country. 
Thank you.
    Ms. Tauscher. Thank you, Mr. Langevin. I am happy to yield 
five minutes to the gentleman from New Mexico, Mr. Heinrich.
    Mr. Heinrich. Dr. Perry, Dr. Schlesinger, I want to thank 
you for being here today and for all the work the Commission 
did. Gentlemen, the Commission concluded on page 62 that ``the 
intellectual infrastructure is also in serious trouble. A major 
cause is the recent (and projected) decline in resources.'' The 
report went on to say that, if funding for the NNSA does not 
increase, that the Agency will be unable to transform the 
weapons complex, perform the necessary life extension work, and 
sustain the scientific base of the weapons program. Indeed, the 
report points out that the NNSA is already planning to reduce 
lab budgets by 20 to 30 percent regardless of the impact on 
scientific capabilities, and without having even studied that 
impact.
    Recognizing that you believe that a funding study should be 
performed, I would like to ask: Did the Commission reach any 
consensus on the level of resources that should be allocated in 
the short-run to NNSA to ensure that these three key objectives 
can be achieved?
    Dr. Perry. The short answer to your question is no, we have 
not done a detailed cost analysis. We have reached a clear 
judgment that it is a mistake to proceed with this decrease in 
the intellectual capital with the laboratories. Without any 
question, I have to add my own personal judgment that we should 
restore it to the previous levels. That can be done either by 
increasing the overall budget for NNSA, or by time-phasing out 
some of the physical infrastructure changes that are being 
made, and we gave a set of priorities on how that might be 
done. But, without question we ought to put first priority to 
maintaining the intellectual capital at the three laboratories.
    Dr. Schlesinger. The first point, of course, is: do no 
harm. And given the prospective budget levels, the labs are in 
for a 20 or 30 percent cut, which would do damage. So we need 
to sustain at least the present level. The problem that we have 
had is that the plant infrastructure for many years has been 
starved in order to preserve the laboratories. And now that 
infrastructure needs to be replaced. And against a level 
budget, all that we can do in the eyes of NNSA is to reduce the 
funding of the laboratories, and we think that that is a 
mistake. I think that you have to break out the restoration of 
the metallurgical lab at Los Alamos separate from the funding 
for the labs.
    Now, I would hope that there would be a careful analysis of 
how much money is required to sustain that intellectual 
capability, not this year, not next year, but over the decades 
ahead. And we have not done that. I don't know whether we have 
the resources to do that in the Commission, but it needs to be 
done in a serious way. Otherwise, one faces these kinds of 
arbitrary cuts that, in this case, will damage the intellectual 
capital at a time that it is deteriorating simply because of 
the aging of those who have worked on this work in the 
laboratories for many years and who are now retiring.
    One other comment I would make is that the intellectual and 
the human capital, if we continue on the process of reducing 
the funding for the laboratories and the personnel at the 
laboratories, and we lose more laboratories, that is an 
irreversible move. It took us decades to build up that human 
capital, and it will take us many more decades to try to 
restore it. So it is a very serious concern.
    Mr. Heinrich. Would you have any comments on the 
consequences of not funding the national security labs on the 
potential for future arms reduction attempts and negotiations?
    Dr. Perry. Just one point I would make.
    I testified to this committee that I strongly support the 
Comprehensive Test Ban Treaty. That support is contingent, in 
my mind, on maintaining a strong intellectual capacity at the 
laboratories.
    Dr. Schlesinger. We have repeatedly made the point that one 
of the purposes of our posture is to provide reassurance to the 
allies who depend upon us. And to the extent that they watch 
the deterioration of our intellectual capital at the 
laboratories, their confidence in us diminishes and the 
willingness of some to develop their own nuclear capabilities 
may increase.
    So the overall impressiveness of the U.S. nuclear 
establishment is part of what maintains stability in the 
international environment.
    Mr. Heinrich. Thank you both. I yield back.
    Ms. Tauscher. Thank you, Mr. Heinrich. Dr. Perry, Dr. 
Schlesinger, members of the Commission, the United Institute of 
Peace, and staff that have worked so hard on this: let me tell 
you that this document that you have worked on is one of the 
finest I think I have ever seen, and far beyond meets my 
expectations when we created this commission two years ago.
    Let me thank you for your significant and extraordinary 
pedigrees that you have brought forward. You have done 
extraordinary service for this committee, for the Congress, and 
for the American people. Let me thank you for your patriotism. 
Some of you have been in service of this country all of your 
adult lives, and I will tell you that for all of the work that 
you have done, this, I think, is a fantastic culmination.
    I will tell the American people and my constituents the 
most impressive thing about this is that, not only is it so 
important and timely, but it is readable. And I really commend 
this to average Americans who are interested in understanding 
where we are on this issue.
    When I met with you the first time, one of the things I 
asked you for was a narrative for the American people, for us 
to be able to lift this above partisan politics and ideology to 
a place where average Americans could understand exactly where 
we are, exactly what the threats are, exactly what our 
opportunities are, and to really lever the time of a new 
Administration--a time when we have a nuclear treaty review, 
when we have a new nuclear posture review coming out, 
nonproliferation treaty review, a potential for a CTBT, all of 
these coming together in this extraordinary time.
    And I think that you have given a road map by an all-star 
team, and I hope we can keep this team together. Perhaps we 
will find more work for you to do in the not-too-distant 
future.
    Thank you very much for your service, and the hearing is 
adjourned.
    Dr. Schlesinger. Madam Chairman, you are far too modest. 
Think of this as your baby.
    Ms. Tauscher. My baby, by the way, is graduating from high 
school and is going to Bucknell University to play Division I 
volleyball. Thank you very much.
    [Whereupon, at 4:40 p.m., the committee was adjourned.]

=======================================================================




                            A P P E N D I X

                              May 6, 2009
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 6, 2009

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
